U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530
June 4, 2021

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Tyquez Ursery v. United States,
S.Ct No. 20-7943

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 3, 2021
and placed on the docket on May 5, 2021. The government’s response is due on
June 4, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 6, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7943
URSERY, TYQUEZ
USA

CARYLL STEPHANIE ALPERT
FEDERAL PUBLIC DEFENDER
810 BROADWAY
SUITE 200
NASHVILLE, TN 37203
CARYLL_ALPERT@FD.ORG

